                                                                      ~--------   -- - -· \f"



                                                                                           I\


                                                 NATIONAL SCIENCE FOUNDATION~
                                                  OFFICE OF INSPECTOR GENERAL I
                                                    OFFICE OF INVESTIGATIONS
                                                                                                1\

                                           CLOSEOUT MEMORANDUM                                   ~~




Case Number: A12030021                                                                                                                Page 1 of 1

                                                                                                      ,j                                            :       :1
         Through our proactive review of plagiarism, we discovered a significant am~unt of copied text in                                           1
                                                                                                                                                            ~
         an NSF proposal 1 and opened this case. A more detailed review found that the author of the                                                1
                                                                                                                                                             I
         source text was a collaborator on the proposal. 2 Given the collaboration of thet
                                                                                           source author
         with the PI on this project, and the fact that no other copied text was discovered within the
         Proposal, this case is closed.                                                                    1\

                                                                                                           I
                                                                                                            ~t·                                         : I
                                                                                                            !                                           l        I
                                                                                                                il                                      I

                                                                                                                I';\




                                                                                                                       "II
                                                                                                                       \\
                                                                                                                                                                     I
                                                                                                                        ~
                                                                                                                        !
                                                                                                                        ~   11

                                                                                                                            !
                                                                                                                                                                     I   I
                                                                                                                                                                         I




                                                                                                                            !I
                                                                                                                             II'I
                                                                                                                             I   ~
                                                                                                                                 !I

                                                                                                                                 ~
         1
         2
             [Redacted]
             [Redacted]
                                                                                                                                 I                                   I
                                                                                                                                                                     : ·I
                                                                                                                                                                     r
                                                                                                                                                                     I
                                                                                                                                                                             !!
                                                                                                                                                                             ;1.




NSF OIG Form 2 (11102)                                                                                                                                                   I         I
